<html>
<title> - PROTECTING WORKERS' RIGHT TO ORGANIZE: THE NEED FOR LABOR LAW REFORM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 PROTECTING WORKERS' RIGHT TO ORGANIZE:
                     THE NEED FOR LABOR LAW REFORM

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 26, 2019
                               __________

                           Serial No. 116-11
                               __________

      Printed for the use of the Committee on Education and Labor
      
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
                               _________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-586 PDF                WASHINGTON : 2019                 



                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                FREDERICA S. WILSON, Florida, Chairwoman


Donald Norcross, New Jersey          Tim Walberg, Michigan
Joseph D. Morelle, New York            Ranking Member
Susan Wild, Pennsylvania             David P. Roe, Tennessee
Lucy McBath, Georgia                 Rick W. Allen, Georgia
Lauren Underwood, Illinois           Francis Rooney, Florida
Haley M. Stevens, Michigan           Jim Banks, Indiana
Joe Courtney, Connecticut            Russ Fulcher, Idaho
Marcia L. Fudge, Ohio                Van Taylor, Texas
Josh Harder, California              Steve C. Watkins, Jr., Kansas
Donna E. Shalala, Florida            Ron Wright, Texas
Andy Levin, Michigan                 Dan Meuser, Pennsylvania
Lori Trahan, Massachusetts           Dusty Johnson, South Dakota
(VACANT)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 26, 2019...................................     1

Statement of Members:
    Walberg, Hon. Tim, Ranking Member, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     4
        Prepared statement of....................................     5
    Wilson, Hon. Frederica S., Chairwoman, Subcommittee on 
      Health, Employment, Labor, and Pensions....................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Harper, Ms. Cynthia, Englewood, OH...........................    11
        Prepared statement of....................................    13
    Rosenfeld, Dr. Jake, Ph.D., Associate Professor of Sociology, 
      Washington University, St. Louis, MO.......................     7
        Prepared statement of....................................     9
    Taubman, Mr. Glenn M., Staff Attorney National Right to Work 
      Defense Foundation, Springfield, VA........................    16
        Prepared statement of....................................    18
    Virk, Ms. Devki K., J.D., Member Bredhoff and Kaiser, PLLC, 
      Washington, DC.............................................    25
        Prepared statement of....................................    27

Additional Submissions:
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina:
        Prepared statement.......................................    72
    Chairwoman Wilson:
        Letter dated March 25, 2019, from the International Union 
          of Painters and Allied Trades (IUPAT)..................    66
        Prepared statement from Douglas, Bettie..................    75
        Prepared statement from Poole, Earvie....................    77
    Questions submitted for the record by:
        Stevens, Hon. Haley M., a Representative in Congress from 
          the State of Michigan..................................    79
        Morelle, Hon. Joseph D., a Representative in Congress 
          from the State of New York 



        Rooney, Hon. Francis, a Representative in Congress from 
          the State of Florida...................................    83
    Responses to questions submitted for the record by:
        Ms. Harper...............................................    86
        Dr. Rosenfeld............................................    89
        Mr. Taubman..............................................    90

 
                      PROTECTING WORKERS' RIGHT TO
                      ORGANIZE: THE NEED FOR LABOR
                              LAW REFORM

                              ----------                              


                        Tuesday, March 26, 2019

                       House of Representatives,

                        Subcommittee on Health,

                    Employment, Labor, and Pensions,

                   Committee on Education and Labor,

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2175, Rayburn House Office Building, Hon. Frederica Wilson 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Wilson, Norcross, Morelle, Wild, 
McBath, Underwood, Courtney, Fudge, Harder, Shalala, Levin, 
Scott, Walberg, Roe, Allen, Banks, Taylor, Watkins, Wright, 
Johnson, and Foxx.
    Staff present: Tylease Alli, Chief Clerk; Jordan Barab, 
Senior Labor Policy Advisor; Nekea Brown, Deputy Clerk; Ilana 
Brunner, General Counsel--Health and Labor; Kyle deCant, Labor 
Policy Counsel; Emma Eatman, Press Aide; Mishawn Freeman, Staff 
Assistant; Sheila Havenner, Director of Information Technology; 
Eli Hovland, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Bertram Lee, Policy Counsel; Richard 
Miller, Director of Labor Policy; Max Moore, Office Aide; 
Veronique Pluviose, Staff Director; Banyon Vassar, Deputy 
Director of Information Technology; Katelyn Walker, Counsel; 
Cyrus Artz, Minority Parliamentarian; Marty Boughton, Minority 
Press Secretary; Courtney Butcher, Minority Coalitions and 
Members Services Coordinator; Akash Chougule, Minority 
Professional Staff Member; Rob Green, Minority Director of 
Workforce Policy; Hannah Matesic, Minority Director of 
Operations; Kelley McNabb, Minority Communications Director; 
Brandon Renz, Minority Staff Director; Ben Ridder, Minority 
Legislative Assistant; Meredith Schellin, Minority Deputy Press 
Secretary and Digital Advisor; and Heather Wadyka, Minority 
Staff Assistant.
    Chairwoman Wilson. The Subcommittee on Health, Employment, 
Labor, and Pensions will come to order.
    Welcome, everyone. I note that a quorum is present.
    The subcommittee is meeting today in a hearing to receive 
testimony on ``Protecting Workers' Rights to Organize: the Need 
for Labor Law Reform.''
    Pursuant to committee rule 7(c), opening statements are 
limited to the chair and the ranking member. This allows us to 
hear from our witnesses sooner and provides all members with 
adequate time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    Today's hearing is an important opportunity to examine the 
threats to workers' rights and explore proposals that will 
improve the quality of life for millions of workers and their 
families.
    America's unions are engines of economic mobility. For 
generations, they have fueled our Nation's prosperity, 
protected the health and safety of American workers, and 
supported a strong middle class.
    Beyond fighting for better wages and benefits, unions 
safeguard equal pay for equal work. They advocate well beyond 
their membership to ensure that all workers can achieve 
economic mobility. As Congress considers measures to close the 
wage gap for women and people of color, unions play an 
essential role in fostering pay equity.
    Strong unions played a central role in building a robust 
middle class in this country, and they are essential to 
rebuilding it again.
    Simply put, if you claim to back the interests of working 
people, you must also be pro-union.
    The right to join a union is an internationally recognized 
human right. Unfortunately, the combination of weak labor laws, 
intensification of employer opposition to unions, and 
relentless political attacks have driven union membership to 
historic lows.
    Roughly a third of American workers were in a union in 
1956. Today, just 1 in 10 workers is in a union. This shift has 
had widespread consequences for working families and the middle 
class. I call your attention to the charts.
    As union membership decreased from 27.1 percent to 11.1 
percent between 1973 and 2015, the share of income going to the 
top 10 percent skyrocketed from 31.9 percent to 47.8 percent. 
Over the past decades, wages for the typical worker have 
stagnated. The link between rising productivity and higher pay 
has been broken.
    When union membership hovered around 30 percent between the 
end of World War II and 1973, wage growth was in lockstep with 
increased productivity by over 90 percent. However, between 
1973 and 2017, productivity increased by 73 percent, but wages 
have only grown by 12.3 percent, adjusting for inflation.
    Let me underscore this important point: The decline in 
union membership has eroded the link between growing 
productivity and rising pay. It has stagnated wages for 
American workers.
    Inequality and wage stagnation are not natural products of 
a functioning economy. They are the result of policy choices 
that have stripped workers of the power to stand together and 
bargain for fairer wages, benefits, and working conditions.
    We have seen this consistently in the Trump 
administration's policy decisions as President Trump has sided 
with big corporations at the expense of workers and unions.
    Under this administration, the National Labor Relations 
Board has empowered employers to gerrymander and interfere in 
union representation elections, misclassify employees as 
contractors to deny them their rights, and retaliate against 
workers who exercise their First Amendment rights. This is 
simply unacceptable.
    That is why during the last Congress, committee Democrats 
introduced legislation to ensure that workers have strong 
bargaining rights and protections from unscrupulous employers. 
This Congress, the committee will continue the effort to 
strengthen labor laws so that workers can stand together and 
negotiate for a fair return on their work.
    Today, we will explore the strengths and weaknesses in the 
current State of labor law and identify proposals that hold 
employers that violate the law accountable, protect collective 
action, and modernize labor laws for a changing economy.
    If Congress is truly on the side of American workers, then 
we must protect their right to bargain for better wages and 
better working conditions. This hearing is an important step 
toward that goal.
    I want to thank all of our witnesses for being with us 
today, and I look forward to your testimony to enlighten us.
    I will now recognize the distinguished ranking member for 
the purpose of making an opening statement.
    Ranking Member Walberg.
    [The statement of Chairwoman Wilson follows:]

      Prepared Statement of Hon. Frederica S. Wilson, Chairwoman, 
        Subcommittee on Health, Employment, Labor, and Pensions

    Today's hearing is an important opportunity to examine the threats 
to workers' rights and explore proposals that will improve the quality 
of life for millions of workers and their families.
    America's unions are engines of economic mobility. For generations, 
they have fueled our Nation's prosperity, protected the health and 
safety of American workers, and supported a strong middle class.
    Beyond fighting for better wages and benefits, unions safeguard 
equal pay for equal work. They advocate well beyond their membership to 
ensure that all workers can achieve economic mobility. As Congress 
considers measures to close the wage gaps for women and people of 
color, unions play an essential role in fostering pay equity.
    Strong unions played a central role in building a robust middle 
class in this country, and they are essential to rebuilding it again.
    Simply put, if you claim to back the interests of working people, 
you must also be pro-union.
    The right to join a union is an internationally recognized human 
right. Unfortunately, the combination of weak labor laws, 
intensification of employer opposition to unions, and relentless 
political attacks have driven union membership to historic lows.
    Roughly a third of American workers were in a union in 1956. Today, 
just one in 10 workers is in a union. This shift has had widespread 
consequences for working families and the middle class. As union 
membership decreased from 27.1 percent to 11.1 percent between 1973 and 
2015, the share of income going to the top 10 percent skyrocketed from 
31.9 percent to 47.8 percent.
    Over the past 4 decades, wages for the typical worker have 
stagnated. The link between rising productivity and higher pay has been 
broken. When union membership hovered around 30 percent between the end 
of World War II and 1973, wage growth was in lockstep with increased 
productivity by over 90 percent.
    However, between 1973 and 2017, productivity increased by 73 
percent, but wages have only grown by 12.3 percent, adjusting for 
inflation. Let me underscore this important point: the decline in union 
membership has eroded the link between growing productivity and rising 
pay. It has stagnated wages for American workers. Inequality and wage 
stagnation are not natural products of a functioning economy. They are 
the result of policy choices that have stripped workers of the power to 
stand together and bargain for fairer wages, benefits and working 
conditions.
    We have seen this consistently in the Trump administration's policy 
decisions as President Trump has sided with big corporations at the 
expense of workers and unions. Under this administration, the National 
Labor Relations Board has empowered employers to:
    * Gerrymander and interfere in union representation elections,
    * Misclassify employees as contractors to deny them their rights, 
and
    * Retaliate against workers who exercise their First Amendment 
rights.
    This is simply unacceptable.
    That is why, during the last Congress, Committee Democrats 
introduced legislation to ensure that workers have strong bargaining 
rights and protections from unscrupulous employers.
    This Congress, the Committee will continue the effort to strengthen 
labor laws so that workers can stand together and negotiate for a fair 
return on their work.
    Today we will explore the strengths and weaknesses in the current 
State of labor law, and identify proposals that:
    * Hold employers that violate the law accountable,
    * Protect collective action, and
    * Modernize labor laws for a changing economy.
    If Congress is truly on the side of American workers, then we must 
protect their right to bargain for better wages and better working 
conditions.
    This hearing is an important step toward that goal.
    I want to thank all of our witnesses for being with us today and I 
look forward to your testimony.
                                 ______
                                 
    Mr. Walberg. I thank the Chairwoman and appreciate the 
opportunity to make the statement and be part of this hearing 
today.
    While we agree that Federal labor law is in need of reform, 
the title of today's hearing, with all due respect, is premised 
on a fallacy: that workers' right to organize and join a union 
is in some way in jeopardy.
    Federal law protects workers' rights to unionize, point 
blank. Becoming a union member is an important and personal 
decision, and Republicans and Democrats alike respect the right 
of employees to decide for themselves--to decide for 
themselves--whether union membership is right for them.
    It is personal for me, too. I grew up in a union household. 
My father was a machinist and tool and die maker who spent part 
of his working career as a union organizer. When I graduated 
from high school, I went to work at the same steel mill on the 
south side of Chicago.
    It is important that we have a level playing field and 
workers receive good pay for a good day's work. But times have 
changed since my father was organizing in the workplace.
    Since 1983, union membership has steadily fallen from over 
20 percent to just 10.5 percent in 2018, and less than 7 
percent in the private sector.
    Of the workers that are still represented by unions today, 
almost none, like me when I was a member of the union, ever 
actually voted for the union that represents them. This is 
America.
    It seems straightforward that the best way to reverse the 
downward trend would be through increased transparency and 
working to better serve their members. Instead, we have seen 
calls for labor laws that would empower union interests and 
allow those at the top--at the top--to further consolidate 
power.
    There is no question that the National Labor Relations Act, 
NLRA, and Labor Management Reporting and Disclosure Act, LMRDA, 
are in need of targeted reform. However, the answer should not 
be to alter these laws in a way that tilts the balance of power 
toward special interests at the expense of the hardworking men 
and women who drive our economy.
    Let's not forget, the last time Democrats held a majority 
in the House, they voted to deny workers the right to a secret 
ballot in union elections. In 2015, the Obama NLRB implemented 
a rule that gives workers as few as 11 days to decide whether 
or not to join a union and do the research necessary, for their 
best interest.
    The Obama board also ruled that employers must hand over 
employees'--and get this, none of us like this--hand over 
employees' private information, like home addresses, phone 
numbers, and work schedules, aiding well-documented efforts to 
harass, intimidate, and pressure workers into supporting the 
union. Private information.
    Workers deserve the right to make free and informed 
decisions about joining a union. And reforms to the NLRA and 
LMRDA should put workers, not union leaders, first.
    That is why Republicans have introduced numerous pieces of 
legislation in recent years that would protect and expand 
workers' rights within their union, and increase financial 
transparency, so workers can see with greater detail how unions 
are spending the dues taken from the workers' hard-earned 
paychecks.
    American workers have greater opportunities today than they 
have in decades. Wages are rising. That is a fact. Unemployment 
is at near record lows, back to the days that I worked at U.S. 
Steel. Millions of jobs have been created since President Trump 
took office. There are ``help wanted'' signs everywhere I go 
across Michigan.
    With so many good-paying jobs waiting to be filled, we need 
to develop a skilled work force and equip our people with on-
the-job experience.
    As this economy continues to thrive, our focus should be on 
expanding pro-growth economic policies that create the best 
path forward for union and nonunion workers alike.
    And I yield back.
    [The statement of Mr. Walberg follows:]

Prepared Statement of Hon. Tim Walberg, Ranking Member, Subcommittee on 
                Health, Employment, Labor, and Pensions

    Thank you for yielding.
    While we agree that Federal labor law is in need of reform, the 
title of today's hearing is premised on a fallacy: that workers' right 
to organize and join a union is, in some way, in jeopardy. Federal law 
protects workers' right to unionize, point blank. Becoming a union 
member is an important personal decision and Republicans and Democrats 
alike respect the right of employees to decide for themselves whether 
union membership is right for them.
    It's personal for me, too. I grew up in a union household. My 
father was a machinist and tool and die maker who spent part of his 
working career as a union organizer. When I graduated from high school, 
I went to work at a steel mill on the south side of Chicago. It's 
important that we have a level playing field and workers receive good 
pay for a good day's work.
    But times have changed since my father was organizing his 
workplace. Since 1983, union membership has steadily fallen from over 
20 percent to just 110.5 percent in 2018, and less than 7 percent in 
the private sector. Of the workers that are still represented by unions 
today, almost none have ever actually voted for the union that 
represents them.
    It seems straightforward that the best way to reverse the downward 
trend would be through increased transparency and working to better 
serve their members. Instead, we've seen calls for labor laws that 
would empower union interests and allow those at the top to further 
consolidate power.
    There's no question that the National Labor Relations Act (NLRA) 
and Labor-Management Reporting and Disclosure Act (LMRDA) are in need 
of targeted reforms. However, the answer should not be to alter these 
laws in a way that tilts the balance of power toward special interests 
at the expense of the hardworking men and women who drive our economy.
    Let's not forget, the last time Democrats held the majority in the 
House, they voted to deny workers the right to a secret ballot in union 
elections. In 2015, the Obama NLRB implemented a rule that gives 
workers as few as 11 days to decide whether or not to join a union. The 
Obama Board also ruled that employers must hand over employees' private 
information like home addresses, phone numbers, and work schedules, 
aiding well-documented efforts to harass, intimidate, and pressure 
workers into supporting the union.
    Workers deserve the right to make free and informed decisions about 
joining a union, and reforms to the NLRA and LMRDA should put workers, 
not union leaders, first. That is why Republicans have introduced 
numerous pieces of legislation in recent years that would protect and 
expand workers' rights within their union and increase financial 
transparency, so workers can see with greater detail how unions are 
spending the dues taken from workers' hard-earned paychecks.
    American workers have greater opportunities today than they have in 
decades. Wages are rising, unemployment is at near-record lows, and 
millions of jobs have been created since President Trump took office. 
There are ``Help Wanted'' signs everywhere I go across Michigan. With 
so many good-paying jobs waiting to be filled, we need to develop a 
skilled work force and equip our people with on-the-job experience.
    As this economy continues to thrive, our focus should be on 
expanding pro-growth economic policies that create the best path 
forward for union and non-union workers alike.
                                 ______
                                 
    Chairwoman Wilson. Without objection, all other members who 
wish to insert written statements into the record may do so by 
submitting them to the committee clerk electronically in 
Microsoft Word format by 5 p.m. on April 9, 2019.
    I will now introduce our witnesses.
    Dr. Jake Rosenfeld is an assistant professor at Washington 
University in St. Louis, Missouri.
    Welcome.
    Ms. Cynthia Harper is a lamination specialist, formerly 
employed in an automotive glass plant, and she is from 
Englewood, Ohio.
    Welcome.
    Mr. Glenn Taubman is a staff attorney at the National Right 
to Work Legal Defense Foundation.
    Welcome.
    Ms. Devki Virk is a member of the law firm Bredhoff & 
Kaiser.
    Welcome.
    We appreciate all of the witnesses for being here today, 
and we look forward to your testimony. Let me remind the 
witnesses that we have read your written statements. They will 
appear in full in the hearing record. Pursuant to committee 
rule 7(d) and committee practice, each of you is asked to limit 
your oral presentation to a 5-minute summary of your written 
statement.
    Let me also remind the witnesses that pursuant to Title 18 
of the U.S. Code, Section 1001, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress, or otherwise 
conceal or cover up material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the members can hear you. As you begin to speak, 
the light in front of you will turn green. After 4 minutes, the 
light will turn yellow to signal that you have 1 minute 
remaining. With that, when the light turns red, your 5 minutes 
have expired and we ask that you please wrap up.
    We will let the entire panel make their presentations 
before we move to member questions. When answering a question, 
please remember to once again turn your microphone on.
    I will first recognize Dr. Rosenfeld.

STATEMENT OF MR. JAKE ROSENFELD, PH.D., ASSOCIATE PROFESSOR OF 
  SOCIOLOGY, WASHINGTON UNIVERSITY IN ST. LOUIS, ST. LOUIS, MO


    Dr. Rosenfeld. Madam Chair Wilson, Ranking Member Walberg, 
and all members of the subcommittee, thank you for the 
opportunity to testify today about the benefits collective 
bargaining has on our work force.
    My name is Jake Rosenfeld. I am an associate professor of 
sociology at Washington University in St. Louis, and for the 
past 15 years I have conducted quantitative research on the 
linkages between strong unions and economic equality in the 
U.S. and how union decline has contributed to widening income 
disparities in our economy today.
    The unionization rate today is at its lowest point in over 
a century. It is as low as it was prior to passage of the 
National Labor Relations Act, a law intended to guarantee 
workers the right to bargain collectively with their employers.
    This dramatic decline has far-reaching implications for our 
work force. From my own and related research, I wanted to share 
four key findings with you today.
    First, there is an accumulating body of research from 
across the social sciences that finds that strong unions were a 
key factor in delivering widespread gains to millions of 
working and middle class Americans during the post-World War II 
decades. Their decline explains much of the subsequent rise in 
income inequality.
    One influential study I co-authored with Bruce Western 
finds that the fall in union membership explains about a third 
of the rise of income inequality among men and about a fifth of 
the rise among women.
    A recent study by economists at the International Monetary 
Fund links diminished union power to rising incomes at the very 
top of the distribution. The implication from the IMF report is 
that union decline has allowed the rich to get richer and 
contributed to stagnant and falling incomes for nearly everyone 
else.
    And this includes nonunion workers. The second finding I 
want to share with you today stems from new studies that reveal 
just how important unions were to the economic standing of 
nonunion workers.
    In a 2016 study with Patrick Denice and Jennifer Laird, we 
examined over three decades of data on millions of American 
workers who do not belong to a union and found that weekly 
wages for nonunion men would be about $50 higher if unions 
today remained as strong as they were in the late 1970's. For a 
year-round worker, this translates to an annual wage loss of 
about $2,700.
    In a followup study, we found that the effects of union 
decline on nonunion pay remained after adjusting statistically 
for other key determinates of wages in the modern economy, 
including rising skill demands, demanufacturing, and 
automation.
    Third, when and where they were strong, unions were 
especially important for the economic standing of racial and 
ethnic minorities and women workers. Nationally, union 
representation rates for African American men in the private 
sector rose to nearly 40 percent by the early 1970's. And by 
the end of the 1970's, nearly one out of every four African 
American women in the private sector belonged to a union.
    In this country, we had nearly closed the racial wage gap 
among women by 1980. The destruction of private sector unions 
from the 1980's onward widened it once again. My research 
indicates that had union membership rates for women remained at 
late 1970's levels, racial wage inequality among women in 
private sector jobs today would be lowered by as much as a 
third. Other research has established that gender pay gaps are 
much smaller in the unionized sector.
    The labor movement's upsurge between the Great Depression 
and World War II relied heavily on immigrants and their 
children. Echoing this historical pattern, my research reveals 
that more recent arrivals are joining unions at high rates in 
those sectors where organized labor remains powerful.
    But those sectors are obviously shrinking. Unlike past 
generations of immigrants who once swelled the ranks of the 
organized work force, recent immigrants face an economic and 
political context that is now largely hostile to unions. As a 
result, contemporary immigrants and their children enter labor 
markets largely lacking a proven pathway to the middle class 
that unions had established.
    Fourth and finally, it is time to dispel the myth that U.S. 
workers have turned away from unions. In 2017, researchers at 
MIT surveyed nearly 4,000 U.S. workers. They asked the nonunion 
workers whether they would vote for a union if given the 
opportunity, and nearly half replied yes.
    If the private sector unionization rate were simply a 
function of workers' desire, it would be much closer to 50 
percent than its current rate of just above 5 percent. And a 
recent Gallup poll found that support for labor unions is at a 
15-year high with nearly two-thirds of Americans expressing 
approval.
    This is what makes strengthening the National Labor 
Relations Act so important. Today workers are often blocked 
from exercising their legally guaranteed freedom to negotiate. 
Inequality has reached heights unscaled since the first Gilded 
Age. These two trends are intimately tied, and if we are 
serious about combating the latter, it is past time to do 
something about the former.
    Thank you.
    [The statement of Dr. Rosenfeld follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Dr. Rosenfeld.
    We will now recognize Ms. Harper.

         STATEMENT OF MS. CYNTHIA HARPER, ENGLEWOOD, OH

    Ms. Harper. Thank you, Madam Chair Wilson, Ranking Member 
Walberg, and members of the committee, for the opportunity to 
testify today. My name is Cynthia Harper. I live in Englewood, 
Ohio.
    I worked as a lamination specialist at Fuyao Glass of 
America in Moraine, Ohio, from May 2015, to October 2017, where 
we made automotive glass. I also worked at that same plant for 
General Motors Truck and Bus for 14 years.
    My job was strenuous and dangerous. I worked in the stretch 
room, loading polyvinyl butryal lamination into a machine and 
then putting measurements in the computer. There was no 
lockout, tagout policy in place, which is a step that shuts 
down the computer when maintenance needs to be done. Not only 
is this dangerous for workers, not having this policy, it is 
illegal.
    There were no overhead mirrors in the aisles or pedestrian 
lanes. Forklifts, golf carts, and people were also using the 
same lanes, causing mass confusion and fear that someone would 
be killed accidentally. Numerous of occasions I have witnessed 
people almost getting hit by forklifts because they were not 
properly designated.
    Workers were also handling hazardous material with no 
safety equipment. When I cut PVB, I worked with a homemade 
knife that consists of a blade and some leftover PVB. We were 
not allowed to wear gloves and someone was cut almost every 
day. Management said they didn't use gloves and we needed no 
gloves because our hands could properly line the glass.
    There was no emergency exit in the room, and if there was a 
fire, we would have no way to get out.
    Our safety concerns were not being addressed. I believe if 
we had a union, the plant would be safer and more fair across 
the board.
    At the end of the day, we all wanted Fuyao to be a better 
and safer workplace for everyone. A union would have given us a 
voice on the job, and also a say in our safety and health 
improvements.
    When the company found out we were trying to organize a 
union, some workers were fired. Workers on the VOC committee 
were prime targets of the company and were fired. In meetings, 
management would threaten that if we had a union, they would 
move their business elsewhere.
    Fuyao also paid an outside company to come in and hold 
small mandatory group meetings. They told us in these meetings 
negative things about the UAW. They told us if we signed a UAW 
union card we would be signing our life away. I found out later 
that Fuyao hired LRI, an outside company, and paid them almost 
$800,000. But our starting pay was only $12 an hour.
    I was a strong supporter of the union and management knew 
it. They saw me handing out handbills at the front door, 
inviting people to come to our meetings. I wore my pro-union 
shirt. I was in the media. And this is all within my right, 
according to the NLRB.
    I also was identified as one of the people that filed the 
complaint against Fuyao with OSHA. OSHA cited them on numerous 
of those violations and they were fined on the violations.
    The company retaliated against me. In April of 2017, they 
demoted me to a lower-paying job that was more physically 
demanding, and they told me that I had to do the job by myself 
when it was previously a two-man job or either get fired.
    My new job was a bubble repair job where I had to check for 
buttons. I had to lift glass that weighed almost up to a 
hundred pounds and the glass was taller and bigger than I was. 
It was physically tough.
    In June of 2017, I hurt my back on the job. I was fired 
after going out on medical leave because they allegedly said 
that I used my available time. I was fired days before the UAW 
filed a petition to unionize.
    Unfortunately, the anti-union campaign worked. The people 
feared losing their jobs, and at the end of the day we did not 
get a union.
    My story and experience is not isolated or unique. The 
system is unfairly stacked against workers like myself trying 
to organize a union. I just wanted a fair shake and a voice on 
the job. I feared that I would die or not see my family because 
of the major health and safety issues that were not being 
addressed by the company.
    I believe that workers should have the freedom to form a 
union and not fear losing their jobs for support of a union. 
More enforcement needs to be done. The current law is not 
working. Workers need more protection.
    I look forward to responding to your questions. Thank you.
    [The statement of Ms. Harper follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Ms. Harper.
    We will now recognize Mr. Taubman.

  STATEMENT OF MR. GLENN M. TAUBMAN, STAFF ATTORNEY, NATIONAL 
       RIGHT TO WORK DEFENSE FOUNDATION, SPRINGFIELD, VA


    Mr. Taubman. Chairwoman Wilson, Ranking Member Walberg, and 
distinguished Committee members, thank you for the opportunity 
to appear before you today.
    I have been practicing labor and constitutional law for 
over 35 years for individual employees only at the National 
Right to Work Legal Defense Foundation. I believe I have a 
unique perspective that comes from over three decades of 
representing thousands of private sector employees covered by 
the National Labor Relations Act.
    The announced topic of this hearing is the need for labor 
law reform, and I agree that Federal labor law should be 
reformed to better protect individual liberty and safeguard 
individual workers' free choice concerning unionization.
    No worker in America should be threatened with discharge 
from his or her workplace for refusing to pay dues and fees to 
a private organization he or she may despise.
    No worker should be forced to be represented by a private 
organization and its officials who perform poorly in the 
workplace, who place their own interests above those they 
purport to represent, or who act corruptly to steal from the 
very employees they claim to represent.
    No worker should be forced to subsidize, as a condition of 
employment, the political schemes and candidates of a private 
organization of which they disapprove. Yet this is the reality 
for millions of private sector workers today under the 
compulsory dues and monopoly bargaining regimes of the National 
Labor Relations Act.
    Because labor unions under the NLRA do not have to stand 
for periodic recertification, authoritative estimates show that 
94 percent of workers unionized under the NLRA have never voted 
for the union representing their workplace. Perpetually 
encrusting a labor union onto a workplace with no showing of 
current employee support does not lead to workplace stability 
and does not protect individual employees' freedoms of speech 
and association.
    There are several other current problems with the State of 
American labor law.
    First, current law makes it far easier for employees to 
form and join a union than it is for those same employees to 
choose to decertify the union. For example, the National Labor 
Relations Board maintains a startling array of nonstatutory 
election blocks and bars that prevent employees from obtaining 
a decertification election. The Board's current blocking charge 
rules effectively halt decertifications in at least one third 
of the cases.
    Although all of these bars apply to prevent employees from 
decertifying the union, none of them apply to prevent employees 
from certifying the union under the 2014 Obama NLRB's ambush 
election rules.
    No. 2, another major problem with the labor law is that of 
forced dues and forced exclusive representation. It is neither 
fair nor constitutional to force employees into paying dues to 
a private organization upon pain of discharge, as the Supreme 
Court held just last term in Janus v. AFSCME. Similarly, 
forcing an individual to be represented by a private 
organization is antithetical to American values of free speech 
and association.
    Just as few on this committee would approve of being forced 
to be represented against their will by a lawyer or accountant 
purporting to serve as their exclusive representative for 
purposes of dealing with the government, few employees want to 
be forced into an exclusive agency relationship with a labor 
union for purposes of negotiating their wages and working 
conditions.
    Three, even in right-to-work States where employees have 
free choice to refrain from union membership or dues, it is 
usually very difficult for employees to stop paying dues. Union 
officials write dues checkoff cards in microscopic fonts and in 
language designed to be as confusing as possible. They make it 
difficult for employees to exercise their free choice.
    Four, 30 years after the Beck decision, union officials 
continue to thumb their nose at that decision and continue to 
force employees to pay for political advocacy and candidates 
over the objections of nonmembers. This leaves nonmembers, like 
registered nurse Jeanette Geary, little choice but to fight 
decade-long legal battles to protect their legal rights.
    In closing, I wish to reiterate that the NLRA needs serious 
and prompt reform to protect employee free choice and increase 
union transparency. For too long, union officials have been 
empowered by Federal law to gain representational rights 
without a secret ballot election and force employees to accept 
union representation and pay unwanted dues or be discharged 
from their jobs.
    Thank you for your attention. I look forward to answering 
your questions.
    [The statement of Mr. Taubman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Mr. Taubman.
    We will now recognize Ms. Virk.

   STATEMENT OF MS. DEVKI K. VIRK, J.D., MEMBER, BREDHOFF & 
                  KAISER, PLLC, WASHINGTON, DC

    Ms. Virk. Good morning, Chairperson Wilson, Ranking Member 
Walberg, members of the committee. I appreciate your inviting 
me to appear here before you today to address the need for 
reform of the National Labor Relations Act, and in particular, 
protecting workers' rights to organize.
    The purpose of the act, as declared by the Congress that 
passed it, is to actively encourage the practice and procedure 
of collective bargaining by protecting the exercise by workers 
of full freedom of association, self-organization, and 
designation of representatives of their own choosing, for the 
purpose of negotiating the terms and conditions of their 
employment, or for other mutual aid or protection.
    That is a direct quote from the preamble of the statute. 
And the drafters of the NLRA were well aware that meaningful 
self-organization and collective bargaining could not take 
place within a system where, as Congress put it, there existed 
substantial inequality of bargaining power between workers and 
employers.
    The act addresses this problem procedurally by creating a 
framework, a set of ground rules essentially, that Congress 
thought would allow workers and their employers to engage on 
more equal footing.
    In the American system of at-will employment, an employer 
enjoys substantial unilateral power to set the conditions of 
employment. Employers offer jobs on particular terms. Workers 
decide whether to accept those terms or to move on and find a 
different job.
    Few workers have real ability to negotiate terms one-on-one 
with a potential employer. Further, if the employer changes the 
terms, workers can choose to stay and work under those terms or 
leave and find another job.
    But what the NLRA envisions and what it creates is a third 
option: entitling workers to choose to have a meaningful voice 
in setting their own working conditions.
    Unfortunately, in the decades since the NLRA was passed, 
this promise has not been kept. Interpretations of the law have 
diminished, burdened, and severely undermined the fundamental 
rights of workers--the right to self-organization and self-
determination, the right to bargain collectively, the right to 
insist on better conditions, to publicize disputes, and to 
strike in support of what the workers believe that they 
deserve.
    For many workers and unions, far from being a source of 
rights, the NLRA is a legal minefield that they would rather 
avoid. Indeed, one could argue that much of the statute's 
remaining potency lies in its enforcement of employer rights 
and its protection of employer prerogatives.
    In fact, in my experience as a labor law practitioner, 
representing workers and their organizations, even when the 
current NLRA scheme works as well as it can, it falls 
dramatically short of the promise of the act.
    In one case I handled, workers voted for the union by a 
two-to-one margin, but due to post-election objections and 
appeals, certification was not issued until almost 9 months 
later. And the employer stalled, refused to come to the table, 
and finally bribed employees to sign a petition saying they no 
longer wanted the union to represent them, and withdrew 
recognition exactly 1 year after certification had been issued.
    We filed charges. There was a complaint. The board even 
authorized an injunction and won in court. Of course, the order 
issued by that court, which was the only order that it could 
issue, was an order directing the company to recognize and 
bargain with the union. No penalty, no damages, nothing else. 
And even under that expedited process, the order didn't issue 
until 2-1/2 years after the workers had voted overwhelmingly 
for the union.
    In another case, workers at a manufacturing facility had a 
stable bargaining relationship that had lasted for decades, 
then the employer changed hands. The new spokesperson began 
bargaining by telling workers that in his eyes and the eyes of 
the employer, there was no contract and bargaining would begin 
from scratch.
    They rejected the union's proposals with no explanation, 
took irrational positions, and insisted on concessions, 
including big cuts to employee healthcare. And when the union 
refused to agree, the company simply implemented its proposal.
    Some workers, faced with huge premium increases and copays, 
were forced to forego office visits and ration medication for 
their children.
    The board issued a complaint, a hearing was held, and a 
year after the company forced its offer on the workers, charges 
were sustained. But the company appealed. And faced with a 
choice between waiting for justice, likely years away, and 
addressing the urgent needs of members, the union returned to 
the bargaining table and reached an agreement.
    These are examples of the system working.
    It is time to rebuild the NLRA in the image that Congress 
first conceived. Workers should be able to decide promptly if 
they want a union to represent them. They should not have to be 
subject to employer anti-union captive meetings as a condition 
of employment, and they should not have to wait years to obtain 
an order of reinstatement if they are fired.
    Employers who violate the act should face meaningful 
penalties and to comply with the board's orders promptly. The 
importance of a right is measured, at least in part, by how 
simple it is to exercise and how seriously we take its 
violation. The signal has been sent to workers and employers 
that workers' rights to organize and act collectively are not 
worth very much.
    That, decidedly, was not the message that Congress meant to 
send when it enacted the NLRA. But at this point, if we want to 
change that message, we need to change the law so that workers 
who want representation on the job have an effective procedure 
to obtain that representation and an effective system to 
enforce the rights that the law provides.
    Thank you for your attention. I look forward to your 
questions.
    [The statement of Ms. Virk follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. Thank you, Ms. Virk.
    We will now proceed to member questions. Under committee 
rule 8(a), we will now question witnesses under the 5-minute 
rule. I will now yield myself 5 minutes.
    Ms. Harper, I understand that you worked at the plant 
before it was bought by Fuyao, and during that time you had a 
union. Can you compare what it was like working at the plant 
when you had a union and what it was like without a union?
    Ms. Harper. When I worked at General Motors Truck and Bus 
with the union, we had a safety committee, we had an ergonomic 
committee. We also had a seniority rule, that if you had time 
in, that you could bid for jobs and then get the jobs.
    It was a nice environment because we had a suggestion 
process where we could make suggestions on how the job--the 
person that was actually operating the job could make the 
suggestion on how to improve that job. That was the benefit of 
having a union.
    At Fuyao, not having the union, we had a lot of safety 
issues, which I listed in my testimony, and it was pretty much 
a fear going in every day on whether you were going to go home 
safe or see your family because of all of the things that were 
out of place in there. They would put you on whatever job they 
wanted to, take you off of the job even if you were the senior 
person.
    But the most important thing, at the end of the day, we 
wanted to go home to our families and make that place a better 
place. So not having a union was very unfortunate. And I know 
that it still persists because in 2018 one of the coworkers we 
had there was crushed in between a ton of glass. And that was 
one of our safety concerns, that we feared the way they had us 
loading that glass, and the forklift drivers getting off and 
then standing between the glass.
    So that was the difference.
    Chairwoman Wilson. I want to thank you for being here 
today, Ms. Harper, and for telling us that story. And believe 
me, we, on this committee, will fight for you and all Americans 
who exercise their rights to negotiate for better pay, safety, 
and better working conditions. Thank you.
    Dr. Rosenfeld, your testimony cites 2018 polling data from 
Gallup indicating that 62 percent of Americans approve of 
unions. An MIT survey found that almost 50 percent of nonunion 
workers would vote for a union if given the opportunity.
    How do you explain the gap between the large percentage of 
workers who would like to be in a union and the fact that 
around only 6 percent of private sector workers have a union 
today?
    Dr. Rosenfeld. That is a great question. Thank you for it.
    So I think, as Ms. Harper and Ms. Virk so aptly summarized, 
right now the law as it is currently applied actively 
encourages law-breaking on the part of employers. So we know 
from other data that between a quarter to a third of all 
unionization drives include the unlawful firing or otherwise 
disciplining of union supporters and union organizers.
    And you combine that with all the lawful ways in which 
existing law is tilted in employers' favor, and you have this 
present situation, where millions of American workers cannot 
exercise their legally guaranteed right to organize. And that 
is why I think updating the National Labor Relations Act for 
the present realities of today's workplaces is so important.
    Chairwoman Wilson. Thank you.
    Ms. Virk, we can all agree that when an employer breaks the 
law, they should be accountable for their actions. But the 
National Labor Relations Board has very limited power to 
enforce the workers' rights it is charged with protecting.
    In your experience, what have you found to be lacking in 
the NLRB's current enforcement powers? And what can Congress do 
to deter companies from engaging in illegal behavior?
    Ms. Virk. Well, I think in the written submission that I 
made to the committee there is a quote from a Supreme Court 
case nearly 50 years old now called H.K. Porter, which says and 
acknowledges the limited remedial powers that were granted to 
the National Labor Relations Board upon the founding of that 
board and the passage of the act in 1935. What the H.K. Porter 
Supreme Court said was that if we want that to change, Congress 
needs to act. That is not something that the judiciary can do. 
That is not something that the board itself can do by 
regulation.
    Just to illustrate--and I provided a few illustrations in 
my oral testimony--a substantial number of violations of the 
act by employers are remedied solely with a notice posting.
    That is, literally, if an employer fails to bargain in good 
faith, like the court in the case that I described found the 
employer in that case had done, the entirety of that remedy in 
that case was for the employer to be ordered to go back to the 
table and bargain with the union.
    That is it. Literally a posting in the workplace saying: We 
will not refuse to bargain in good faith. In other words, go 
forth and just don't do it again.
    That is not an effective consequence for breaking of the 
law, and it tells an employer, and it tells, more importantly, 
the workers who are attempting to organize, that the rights 
that they have been deprived of by the employer's violation are 
not important. Because if there is not a consequence attached 
to that violation, there can be no change in behavior that we 
can reasonably expect.
    That is just simply one example. In terms of other remedial 
deficiencies in the act, those are documented both in my 
submission and elsewhere.
    The lengthy delays between the time a person gets fired 
illegally during an organizing campaign and the time that even 
if they prevail they are reinstated, that can be years. And by 
that time, the organizing drive that they were aiding itself is 
either broken or has been substantially diminished.
    So the employer in that case has accomplished the purpose 
that it set out to do when it acted with animus in firing 
somebody, and that is, to prevent and scare the union--scare 
the employees from joining a union and voting to have an 
effective voice on the job. That damage has been done, and it 
cannot be remedied years later by a reinstatement order.
    Those are just a few examples.
    Chairwoman Wilson. Thank you. Thank you so much.
    I now recognize our esteemed ranking member, Ranking Member 
Walberg, for his round of questions.
    Mr. Walberg. Thank you, Madam Chairwoman.
    And thank you for the panel for being here.
    And, Ms. Harper, I may make further statements in closing, 
but your story, as told, evidences the reason why there needs 
to be choice, there needs to be opportunity, and it has to be 
free and fair, and that laws that are in place, regardless of 
whether amendments are needed--and we certainly would recognize 
that over time there are--have to be followed. And your case 
illustrates it very clearly. And I say thank you for sharing 
it.
    Mr. Taubman, thank you for being here. The Department of 
Labor has prosecuted union bosses for embezzling well over $100 
million in workers' union dues since 2001, including most 
recently, sadly, in my home State, with the United Auto Workers 
Union scandal that was wide and far-reaching, and sad to see 
the impact that it has had on union workers. Clearly, we can't 
take for granted that union leaders always act with honesty and 
integrity toward their union rank and file.
    The Labor Management Reporting and Disclosure Act is 
intended to allow workers to see how their dues are being spent 
by union bosses. Unfortunately, the Obama Administration 
rescinded rules that would have improved union financial 
transparency under LMRDA. I believe that Congress should codify 
those improvements into law.
    Based on your experience, why do you believe it is so 
important for workers to have this financial information 
available to them about their union?
    Mr. Taubman. Thank you, Congressman Walberg.
    One of the reasons for the decline of workers choosing 
unions is the prevalence of these kind of financial 
transgressions that we see day after day, as you have said. The 
Department of Labor, you can just go to their website and see a 
constant stream of abuse of workers, abuse of the money that 
workers are forced to pay, because basically absolute power 
corrupts absolutely. So it is very important to strengthen the 
LMRDA reporting requirements.
    Employees come to me on a daily basis and ask me about how 
unions are spending their money, and when we go and look at the 
LM-2s, the main financial disclosure reports that the unions 
are required to file, they are very, very cursory. They don't 
provide any details. It is impossible for someone to look at 
these disclosure documents and see what the union is actually 
doing with their money. So all of this creates a culture of no 
accountability.
    I would also add, the National Labor Relations Board just 
ruled in a case of mine called Kent Hospital, Jeanette Geary. 
It is referred to in my written statement. And in that case, 
the union refused to give these employees a copy of its audit. 
It took a 10-year legal battle for these employees to get a 
copy of the union's audit, which they still haven't gotten, 
because the union hasn't yet complied with that decision.
    So if you want to know the bottom line, employees need to 
know what the union is doing with their money, especially in 
situations where they are being forced to pay this money or 
face discharge.
    Mr. Walberg. I mean, it is a sad, sad display either way, 
where the employee doesn't have transparency or the employer 
isn't able to have the transparency as well to deal with.
    Let me ask a final question here. The NLRA protects workers 
from being fired, disciplined, or otherwise harmed by their 
employer for seeking to unionize as the law intends, but no 
such rules exist to protect workers from union coercion and 
intimidation when trying to decertify their union. What other 
inequities exist between the union certification and 
decertification process?
    Mr. Taubman. Right. Well, as I said in my statement and in 
some of the written material as well, the labor law is slanted 
to get unions in power and keep them in power. It is very 
difficult for employees to mount a decertification campaign in 
the face of entrenched union power in the workplace.
    Now, these employees have lived with the union, maybe they 
have lived with the union for decades, and then they say: You 
know what, we want a vote. All we want is a vote. People vote 
for all of the Congressmen in this room on a 2-year basis. So 
employees say: All we want is a vote.
    And what happens is, suddenly there is a raft of what is 
called blocking charges that get filed, or suddenly there are 
NLRB doctrines, all kinds of bars--the successor bar, the 
voluntary recognition bar, the settlement bar--a whole raft of 
crust that has been placed on the National Labor Relations Act 
over these years that prevent employees from just getting a 
simple vote. And that is one of the major inequities, because 
none of these bars apply when a union is seeking a 
certification.
    Mr. Walberg. Thank you. I yield back my time.
    Chairwoman Wilson. Thank you.
    We will now go to the members for questions.
    Ms. Wild.
    Ms. Wild. Thank you, Madam Chairwoman.
    Good morning.
    I would like to start with Ms. Virk and ask you some 
questions about employers' standing. All right? When a union 
files for an election, the employer, as I understand it, is 
considered a party to the election and can litigate issues 
involving the scope and timing of the election. Is that 
correct?
    Ms. Virk. That is correct.
    Ms. Wild. And is the employer on the ballot when employees 
vote on whether to have union representation?
    Ms. Virk. The employer is not on the ballot. It is either 
union or no union. Or if there is a contest between more than 
one union, both unions will be listed on the ballot.
    But employers, certainly in my experience, have approached 
the process as if they were on the ballot and that a vote for 
no union is, in fact, a vote for the employer, and they attempt 
to try to convince employees through a variety of means, some 
of which are lawful and coercive, some of which are unlawful, 
to vote against having a union.
    But that is correct, the employer is not technically on the 
ballot, but most employers, many of them, act as if they are.
    Ms. Wild. So where is it in the NLRA that an employer is 
given the right to litigate an election when they are not on 
the ballot?
    Ms. Virk. Well, as I understand it, it is actually not in 
the text of the act itself. I believe it is Section 9 that 
identifies the process for choosing a representative and for 
workers to choose a representative, but it speaks in those 
terms, employees' choice of representative for the purposes of 
collective bargaining. There is no mention of the employer 
expressly having standing in that process in the text of the 
act.
    Ms. Wild. And am I correct that employers lack standing 
when workers file for an election under the Railway Labor Act? 
Is that correct?
    Ms. Virk. I believe that is correct, yes.
    Ms. Wild. And do you believe that employers have a due 
process right to have standing in such elections?
    Ms. Virk. I know that argument has been made. To be honest, 
I don't know whether any court or whether the board has 
considered that issue.
    Ms. Wild. Do you believe they do?
    Ms. Virk. I don't think that they are granted that right by 
the text of the act. Whether there is a constitutional due 
process claim or not, I am sure they could argue that. I 
believe that they should not have it.
    Ms. Wild. Thank you.
    Ms. Harper, I would like to just ask you, you have 
indicated in your written testimony that you were active in 
trying to disseminate information about workers' right to 
unionize and so forth. Can you explain or describe for us what 
sort of actions were taken by your employer in response to 
efforts to unionize?
    Ms. Harper. Some of the actions were the mandatory meetings 
that we had that would tell us the negative things about a 
union. In just our department meetings, they would threaten 
that if we had a union, they could move their business 
elsewhere. People that were part of the union, like me, I was 
demoted and then placed out in front of everybody for them to 
see on a job that was a two-man job. So they did a lot of 
intimidation that way.
    Ms. Wild. And do you believe that your coworkers understood 
that your demotion was related to your efforts to unionize?
    Ms. Harper. Yes, I do, because I had a lot of them that 
were afraid to even talk to me inside the plant. But they would 
meet me at gas stations outside the plant to talk about the 
issues they were having in their department, but they were 
afraid because they needed their jobs.
    I also had a man that met me outside of there to tell me 
that management forced him to sign a statement against another 
employee that was on our VOC committee that, in turn, got fired 
behind that statement. And he was afraid, but he needed his 
job, because that was his livelihood.
    Ms. Wild. And are you still in touch with your former co-
employees?
    Ms. Harper. Yes.
    Ms. Wild. And do you know anything about whether safety 
conditions at the plant have improved at all since you left?
    Ms. Harper. They have improved, but a lot still exists, and 
they tell me all the time they wish we had a union.
    Ms. Wild. And you described an incident involving an 
employee who was actually killed on the job?
    Ms. Harper. Yes.
    Ms. Wild. And that was back in March 2018?
    Ms. Harper. Yes.
    Ms. Wild. And you learned of that from another employee, or 
how?
    Ms. Harper. No, it was news, it was public news.
    Ms. Wild. Okay. I yield back. Thank you.
    Chairwoman Wilson. Thank you.
    Chairwoman Wilson. Dr. Roe.
    Dr. Roe. Thank you, Madam Chair. I appreciate that. And 
thank everyone for being here.
    Look, the most protective worker in the world is the United 
States worker, employee, no question about it. My dad was one 
of them, a union member, worked for B.F. Goodrich Company 
making heels for shoes. He did after World War II. He lost his 
job. It was outsourced to Mexico.
    And, Dr. Rosenfeld, I appreciate your research, but I think 
it is a little more complicated. One worker in four in 1960 was 
in manufacturing. Today, less than 8 percent of Americans are.
    In 2016, we lost 20,000 manufacturing jobs. And thank 
goodness, President Trump has tried to bring these back. We 
have added 600,000 manufacturing, good-paying jobs for American 
workers.
    And I think that is one of the problems, where we lost 
wages. You mentioned that. I think that absolutely contributed 
to it. And seeing those jobs come back is a great thing.
    Look, I remember I chaired this subcommittee for 6 years, 
and if I remember correctly, the average time to unionize is 35 
days on average.
    I dropped a bill yesterday called the Employee Rights Act, 
and I want to look after the employees. It requires a majority 
of all union members, not a simple majority of those who cast 
ballots, to unionize.
    And this one is very near and dear to my heart because I 
put a uniform on, left this country over 40 years ago to 
protect the most sacrosanct right we have, and that is a secret 
ballot. Every single one of us up here was elected by a secret 
ballot.
    If you want to unionize, you have an absolute right to do 
that. My dad was in the union. But you should have a secret 
ballot so you are not intimidated either, as Ms. Harper 
mentioned, either for or against. You can vote on it the way 
you want to.
    It is a mandated opt-in permission for each union member to 
utilize his or her union dues for any other activity other than 
collective bargaining and direct all unionized workplaces to 
hold periodic secret ballot referendums to determine if 
employees wish to remain in their current union since the 
majority or most members never voted on it. A safeguard to 
worker privacy by granting individuals the ability to opt out 
of sharing their personal information if they don't want to. 
And I could go on. There is more to this.
    But I would like to ask a question to Mr. Taubman. And this 
I found interesting. A 2015 poll from the Opinion Research 
Corporation found that 81 percent of Democrats support the 
right to a secret ballot election, support a requirement that 
unions stand for periodic recertification, and support a 
requirement that unions receive opt-in permission from workers 
before using their dues on politics.
    Is this number surprising to you based on your experience 
representing employees around the country?
    Mr. Taubman. Not surprising to me at all, Congressman Roe, 
because--
    Mr. Roe. Is your mic on?
    Mr. Taubman. Okay. Sorry.
    These things represent fundamental American values. Secret 
ballot, not being forced to give money to organizations that 
you disagree with, having financial transparency with 
organizations that you are asked to support, all of these 
things are fundamental free speech, free association values.
    The Supreme Court in the Janus case just last term and in a 
series of cases going back many decades has recognized 
employees have the right to join unions and support unions, but 
also must have the equal right to not join, to refrain, to 
disassociate.
    And that is what we are talking about here. The right to 
join must include an equal right to refrain, because without 
that, then we are in Venezuela, let us say.
    Mr. Roe. Americans vote for their representation here, as 
you mentioned, every 2 years, and they are guaranteed access to 
a secret ballot when doing so. In this way, Americans can hold 
their congressional members accountable.
    In your opinion, would the secret ballot and periodic 
elections bring more accountability to unionized workplaces?
    Mr. Taubman. Absolutely, because union officials will have 
to work to get the support of the employees they represent. 
Right now, if the employees have never voted, it is almost 
impossible for them to even get an election to determine 
whether the union has support or not. So the union officials 
have no real need to be accountable to the people they 
represent. But if there was automatic recertifications, they 
would have to work for that support.
    Mr. Roe. And I think, you know, I kind of laugh about this, 
saying this tongue in cheek a little bit, but my wife claim she 
votes for me during these elections, but I don't know for sure 
because it is a secret ballot. That way I can't intimidate her 
at the house to vote for me.
    I feel that strongly about it. I think of anything we do, 
we should guarantee every American the right to vote 
unintimidated and with a secret ballot.
    Madam Chair, thank you very much. I yield back.
    Chairwoman Wilson. Thank you, Dr. Roe.
    Now I recognize Representative Fudge.
    Ms. Fudge. Thank you very much, Madam Chair.
    And thank you all so much for being here.
    Ms. Harper from Ohio, welcome.
    Ms. Harper, there really is nothing that we can do to 
change the hearts and minds of the lowlifes who treated you the 
way they did, there are just some people who are despicable and 
mean, especially when you were just only trying to exercise 
your First Amendment rights, which people think only belong to 
certain types of people. But you have the same right to First 
Amendment speech as anybody else.
    The only problem I see today with labor laws is the people 
who want to destroy them, those who have become more desperate 
and more aggressive in their effort to destroy people who work 
hard every day like you do. These are people who have probably 
never worked by the sweat of their brow or the bend of their 
back, so they have no idea what it means to protect workers. So 
the real problem with labor laws today is those who want to 
destroy them.
    And it is interesting that we talked about misappropriation 
of funds. It is not confined to unions. We have had some people 
in the President's Cabinet who had to leave because of 
questionable use of taxpayer money. So it is not confined to 
unions. People are put in jail every day, corporations who 
misappropriate funds. It is not confined to unions. So I don't 
know what that was all about, but it just absolutely made no 
sense.
    Mr. Rosenfeld, we talk about right-to-work laws. Can you 
tell me if, in fact, right-to-work laws really were designed to 
keep unions out because they didn't want Blacks and Whites to 
have the same equal rights?
    Mr. Rosenfeld. Thank you for that question, Congresswoman.
    So the history of right to work is interesting. It is 
pretty ugly. One of the key drivers behind these types of 
regulations was a Texas businessman, a successful businessman 
and White supremacist, Vance Muse, who promoted the rule 
because he ardently felt that unions brought people together, 
brought workers together across racial lines, and that was 
something he felt needed to be stopped in its tracks.
    And so it was no accident that the first states that 
adopted these types of regulations happened to be the states of 
the former Confederacy.
    Subsequent to that, since then, they have spread. Missouri, 
my home state, was the last state in which the legislature 
passed right-to-work legislation. But just back in the summer 
of 2018, two-thirds of Missourians voted against it, and that 
was pretty astonishing from, I think, the broader perspective 
of those who kind of fight for and fight against these types of 
regulations, because like many States, Missouri has seen 
dramatic declines in union representation.
    Ms. Fudge. Mr. Rosenfeld, let me cut you off. I have got a 
very short period of time. Your answer was yes, though, am I 
right, that they--
    Mr. Rosenfeld. Right.
    Ms. Fudge. Okay. Thank you.
    So are you surprised that today, with all of the heightened 
hate speech and all of the rhetoric we hear every day, that we 
are starting to see attacks on labor unions again?
    Mr. Rosenfeld. No. But this has been a longstanding concern 
from many powerful interests, conservative business interests, 
to destroy organized labor in America. For the last 30 or 40 
years, they have proven quite successful.
    Ms. Fudge. So right to work really was born out of racism.
    Ms. Virk, can you talk just briefly about how the Supreme 
Court has undermined organizing and rights of immigrants?
    Ms. Virk. I think you're probably the seminal case on that, 
Congressperson Fudge, is the Hoffman Plastics case that was 
decided, I believe, in the early 2000's. And what that case 
held was that even if an employer fired a worker for union 
activity, that if that worker was an undocumented immigrant, 
that worker not only had no right to reinstatement but had no 
right even to back pay.
    And let me just pause here. The way that the board 
calculates back pay is that they take the wages that the 
employer paid and then they subtract any wages that the 
employee earned in the interim period. So the employer 
essentially gets the benefit of employees going out and seeking 
work to keep body and soul together while they have been 
unlawfully discharged from the employer.
    And what that Supreme Court ruling, I think, has really 
done is discourage even further undocumented immigrants from 
organizing and has encouraged employers to use immigration 
status as a weapon during organizing campaigns. And I can go 
into further detail.
    Ms. Fudge. Well, my time is running out. I would just say 
that we find ourselves in a position that in this country, the 
more things change, the more they stay the same.
    Thank you very much, Madam Chair. I yield back.
    Chairwoman Wilson. I now recognize the esteemed ranking 
member of the Education and Labor Committee, Dr. Foxx.
    Ms. Foxx. Thank you, Madam Chair.
    Mr. Taubman, one of the primary purposes of the National 
Labor Relations Act, NLRA, is to protect the rights of 
employees, but it appears much of the law as written assumes 
that workers benefit from everything a union does and that 
every worker agrees with the decisions of the union.
    Would you agree with that characterization of the NLRA? And 
from your experience, is this view accurate?
    Mr. Taubman. Sorry, sorry thank you, Congresswoman.
    That is a fantastic question because workers are not 
monolithic and workers are not widgets. Workers are individual 
human beings who bring their own experiences and their own 
talents to the workplace.
    And in answer to your question, if unions do such great 
work and all workers benefit, you would think that all workers 
would want to join. But, in fact, that is not the case, because 
workers see that the benefit is not necessarily true to them.
    If you are a top shelf worker with specific skills, you may 
find yourself being held back by the union contract. If you are 
a young worker who wants more pay and is not that concerned 
about your pension, you may find your economic priorities are 
turned upside down by a union contract and union 
representation. And those are just a few examples.
    So the bottom line is that individual workers should be 
treated as individuals, free to make their own decisions about 
what organizations they join or support.
    Ms. Foxx. Thank you.
    Mr. Taubman, 43 percent of union households voted 
Republican for president in 2016 despite roughly 90 percent of 
union political donations going to support Democrats.
    What protections exist for workers to ensure they aren't 
forced to fund union politics against their will? And how might 
we amend the NLRA to provide stronger free speech protections 
to workers?
    Mr. Taubman. Well, of course, in right-to-work States 
employees have the free choice to not join and to opt out. That 
is how they exercise their right to protect themselves from 
funding causes and candidates they do not support.
    In forced unionism States, employees are forced to pay as a 
condition of employment. And up until just a few weeks ago, the 
National Labor Relations Board had ruled that employees must 
fund union lobbying campaigns as a condition of employment.
    That was a ruling from the Obama National Labor Relations 
Board in 2012. And only just now have we gotten a reversal of 
that in a case called Kent Hospital, where the National Labor 
Relations Board said employees do not have to fund political 
campaigns. But yet, it took a nurse, Jeanette Geary, a 9-year 
legal battle to get that ruling.
    So the protections for workers who don't want to support 
political and ideological causes they oppose needs to be 
strengthened greatly.
    Ms. Foxx. Thank you for that.
    It has been mentioned more than once here that 90 percent 
of workers represented by a union today have never actually 
voted for that union itself to represent them, so we have 
created a system of inherited rather than elected 
representation.
    Why is this the case? And how might Congress amend the NLRA 
to remedy this problem?
    Mr. Taubman. I mean, this could be done easily by passing 
legislation to have automatic periodic recertification. That is 
all that would be needed.
    All of the elected officials in this room face the voters 
every 2 years. Senators face the voters every 6 years. I would 
leave it up to this committee and to Congress to determine what 
the appropriate interval should be, but it seems only fair that 
workers be asked periodically: Do you continue to support the 
union that represents you?
    Ms. Foxx. Thank you.
    And, Mr. Taubman, the last time Democrats held the House 
majority they voted to deny workers the right to a secret 
ballot for union elections, a protection guaranteed to every 
American when they vote for their elected officials, including 
Members of Congress.
    Can you briefly explain the difference between the current 
card check process, secret ballot voting, and the card check 
scheme previously passed by the Democrats? Why is the right to 
a secret ballot so important in union elections?
    Mr. Taubman. My experience representing workers, and I am 
told this by many, is that when there is a card check campaign 
going on, they are coerced, they are harassed. Union officials 
come to their home. They are bribed. We will take you out for 
dinners. We will do whatever it takes to get you to sign a 
card, which counts as a vote, whatever it takes. That is part 
of the union organizer's manual, get that signature, whatever 
it takes.
    But that is not how a secret ballot election works. That is 
not how free elections work. You walk into a booth, you close 
the curtain, you vote. Why unions are so afraid of a secret 
ballot election is just startling to me.
    Ms. Foxx. Thank you for your indulgence, Madam Chairman.
    I thank all of our witnesses for being here today.
    Chairwoman Wilson. Thank you, Dr. Foxx.
    Mr. Levin.
    Mr. Levin. Thank you so much, Madam Chairwoman.
    Mr. Taubman, you are getting good at turning on your mike.
    So I hear--I see that you don't like it when--you consider 
it harassment when unions go to people's home. So are you in 
favor of giving workers access, mandatory access to union 
organizers in the workplace so that they can have that access 
to the information, yes or no?
    Mr. Taubman. Well, I believe that unions running organizing 
campaigns have access to workers.
    Mr. Levin. You are wrong. I was a union organizer for 
years. Every employer that I tried to organize the workers at 
would arrest me if I came on the premises.
    Mr. Taubman, I am also really interested in your devotion 
to regular elections. Do you favor that all workers in the 
United States should have an opportunity every 2 years to vote 
on whether they wish to be represented by a union or not?
    Mr. Taubman. No, because there should be--
    Mr. Levin. Why not?
    Mr. Taubman. Because there should be a showing of interest 
by the workers.
    Mr. Levin. So you only favor mandatory elections for 
workers who choose to join a union or who have a union, but you 
are against elections for all workers?
    Mr. Taubman. Well, I gather from your question you are 
suggesting that workers be assigned a union.
    Mr. Levin. No, no, just whether they could--every 2 years 
they could have an opportunity whether they wish to be 
represented by a union or not.
    Mr. Taubman. Which union?
    Mr. Levin. Whatever union they want.
    Mr. Taubman. Well, whatever union they want, but how would 
that work? They are going to be told, well, you are a truck 
driver, so we are going to assign you to the Teamsters.
    Mr. Levin. No. No one talked about assigning. You mentioned 
that.
    So you are against--you are for mandatory elections every 2 
years for workers who have a union, but you are against it for 
workers who don't have a union.
    Mr. Taubman. If the union can organize and file for an 
election, which they seem to have every right to do, they only 
need 30 percent of the cards under current law, then they can 
file for an election.
    Mr. Levin. All right. Thank you. Thank you.
    Mr. Rosenfeld, you talked about the spillover effect when 
workers join unions in terms of how it affects nonunion 
workers. Can you explain more about what the spillover effect 
is?
    Mr. Rosenfeld. Sure. So spillover effects occur through a 
variety of channels. I will be as brief as possible.
    Mr. Levin. Yes. It is okay.
    Mr. Rosenfeld. There are well-documented union threat 
effects. So if you are a nonunion plant next to an organized 
plant, you might raise your pay and benefits to match the 
unionized plant's pay and benefits to avoid a unionization 
drive. So that has been going back generations of research 
documenting that.
    But also we know from how pay setting occurs that industry 
leaders oftentimes set pay standards for the rest of the 
industry. And when organized labor was strong, many industry 
leaders were unionized. And so that means that union and 
nonunion plants alike looked to them when it came to setting 
wages and benefits.
    Mr. Levin. So I think in 1947 and 1952, 35 percent of 
workers in the private sector were unionized. Today it is 6 
percent. Sixty-two percent of Americans have a positive impact 
of unions. If we had a free market for union organization, we 
might have about 30 percent, according to Richard Freeman's 
research and others.
    What impact might it have on the United States economy and 
especially on often marginalized workers--women, workers of 
color, immigrant workers--if there was a real free market for 
unionization and we got back up to something like 30 percent of 
workers being unionized?
    Mr. Rosenfeld. That is a great question.
    I think, first and foremost, you would see--for decades, 
post-World War II decades, we had productivity in the broader 
economy tracking average workers' wages.
    Mr. Levin. Almost exactly, yes.
    Mr. Rosenfeld. Exactly. And then there was a great 
divergence. And for a while, that kind of flummoxed economists 
and others who study this issue. I think there is growing 
consensus that one of the key reasons has been the dramatic 
loss of worker power.
    So if we were to bring density rates up, 20 percent, 30 
percent, I think you would see that gap start to close again, 
and your average workers, including racial and ethnic 
minorities, would start to benefit from broader growth in the 
economy.
    Mr. Levin. And so you think it would have--do you think it 
might have any significant impact on the problem of income and 
wealth inequality in our country, which has gotten much worse 
in the same period as union density has declined?
    Mr. Rosenfeld. I think if you look in this country's own 
history, you look across the developed world today, there is no 
question that raising density rates is a key factor in terms of 
reducing the types of disparities you are discussing.
    Mr. Levin. Okay. Thank you.
    Ms. Virk, can you talk about some of the ways that 
employers can stall elections?
    Ms. Virk. Can stall elections?
    Mr. Levin. Stall elections, yes.
    Ms. Virk. Yes. Under the current rules that have been 
adopted by the board several years ago it is somewhat more 
difficult. But the main way that they can continue to do it is 
by contesting the composition of what they call the bargaining 
unit, which is the group of workers who is entitled to vote for 
union representation.
    And employers often do this by adding groups of employees 
who may bear only an attenuated relationship to the group of 
employees who wants to unionize and who the union has been 
working with, and employers attempt to add those additional 
groups into the group that will have the ability to vote on 
unionization in the workplace.
    Mr. Levin. And the 2014 rules somewhat mitigated the 
problem. How did they do that?
    Ms. Virk. They somewhat mitigated the problem by adopting a 
set of presumptions that if the number of employees who were to 
be added to the unit were less than a certain amount, then the 
board would simply go forward to an election.
    But it still is a substantial issue partly because the 
board doctrine since the Trump administration appointees have a 
majority has also decided some cases that make this additional 
adding in of additional groups into the bargaining unit by 
employers a much more routine practice. That case is called PCC 
Structurals, I believe.
    Mr. Levin. Okay. My time has expired.
    Thank you, Madam Chair.
    Chairwoman Wilson. Thank you.
    Mr. Allen.
    Mr. Allen. Thank you very much, Madam Chair.
    My home State of Georgia has been named as the best State 
to do business in the last 6 years. We have been a right-to-
work State since 1947. The economy in Georgia, particularly in 
my district, is thriving.
    And, of course, I was at a function just on Friday where we 
had 7,000 national association of building and trades union 
members working at a nuclear power facility, the only one under 
construction in the country, and we had the president of the 
union there, the Secretary of Energy, the Secretary of 
Agriculture, the Governor.
    And we were all thanking the President for helping us get 
to this point as far as the economy and helping us. America can 
now do big things again. It has been an amazing turnaround, by 
the way, as far as production at that facility.
    And so I asked: How did you turn this thing around? And 
they said: We empowered the workers.
    And so what we have seen in business, I was in business for 
35 years, and this business of this top down, you do this, you 
do that, or you are going to be this, you are going to be that 
without freedom is out of style in this country. It is out of 
style in the workplace. In other words, you have got union, 
nonunion, this, that, or the other. I mean, what I am in favor 
of is empowering the worker.
    Ms. Harper, you shouldn't work for a company, I mean, with 
7.5 million jobs open out there, there are companies that would 
love to have your services and would treat you as you should be 
treated. Every worker should be treated well.
    But the bottom line is Georgia is doing something right. 
And, obviously, the No. 1 reason that a business locates 
anywhere, anywhere in the country, is skilled work force.
    In fact, I told the president of the national Teamsters 
building and trades union, I said, you skill up a work force 
and I guarantee, because in construction, we are all getting 
great at it. We don't have a lot of young people coming into 
our trades. So you train folks up and there will be plenty of 
jobs out there.
    But according to the data, right-to-work States' household 
employment growth was more than double than that of forced 
union States. Again, you have to be this, you have to be that. 
In Georgia, we can be whatever you need to be, okay?
    Why might a right-to-work State be a more attractive State 
for entrepreneurs and workers alike? I mean, what does your 
research indicate there?
    Yes, sir, Mr. Taubman.
    Mr. Taubman. Well, when you talked about this gathering of 
the building trades there in Georgia, the fact of the matter is 
unions can exist well and can thrive in right-to-work States 
because they have a work force that has voluntarily joined, 
that sees benefit in it. In fact, there is a lot of union 
organizing going on in right-to-work States.
    So there is just a recognition that employees have free 
choice and employees can thrive in right-to-work States. And 
that is all that we are asking for, is the free choice so that 
people can thrive in their workplace and their jobs and not be 
forced into a private organization. And when you have that, 
unions, if they represent people, have to be more responsive.
    Mr. Allen. Again, which makes it a better fit for 
businesses that are looking for a location. Particularly, of 
course, foreign investment has grown substantially in Georgia 
because of that.
    The thing we have in this country that I hold so dear is 
the freedom, the freedom to choose your job, your profession, 
the skill, and that sort of thing. And of course, nobody is in 
a caste system. You are not stuck.
    I mean, what is it that we can do to bring both sides 
together and say this is the best solution for both--all 
workers?
    Mr. Taubman?
    Mr. Taubman. Well, to me, it is obvious that right-to-work 
is just a free principle, that people get to choose and that 
workers thrive. I mean, how you convince a union that exists on 
coercion and compulsion to try something different, I don't 
know and I can't answer. The fact of the matter is unions exist 
and exist well in right-to-work States if they provide benefits 
that their membership chooses to join.
    Mr. Allen. They are doing great in Georgia.
    Chairwoman Wilson. Thank you.
    I will recognize Mr. Norcross.
    Mr. Norcross. Thank you, Madam Chairwoman. Thank you for 
holding this hearing, something near and dear to my heart and 
worked in close to 40 years dealing with labor board, labor 
issues back in the New Jersey/Philadelphia region.
    About 30 years ago, the Ninth Circuit Court of Appeals held 
that it was irrational for the board to presume that a union 
was making an illegal threat unless the union proclaims that 
its picketing would be conducted in a lawful manner.
    In spite of this, in a recent case involving the IBEW, the 
Republican-controlled board ruled that a union, the IBEW in 
this case, breaks the law if it merely notifies Company B that 
it might be picketing against A.
    It sounds very confusing until you have actually lived this 
life, which I have been involved in. This ruling was so off 
base that it led three Republicans appointees on the D.C. 
Circuit to rule that the NLRB approach to this issue was 
without foundation in the act relevant to this case and the 
general legal principles.
    So what did the board do? It doubled down and issued 
another opinion, defying the D.C. Circuit.
    All the local union did in this case was provide a courtesy 
copy to the Las Vegas Convention Center and Visitors Authority 
that the building and the construction trades councils was 
requesting the authority to engage in area standards picketing, 
something I was involved in literally for decades. Nothing here 
leads us to believe what the NLRB is making its decision.
    So, Ms. Virk, where do you see this going, such defiance of 
the court, not the committee itself, but the court? Where do we 
go next, not follow any precedent, any law?
    Ms. Virk. Well, if I understand it, the labor board, I 
don't know if it is unique among agencies, but it is certainly 
the agency that I am familiar with, that--it has a policy of 
what they call nonacquiescence, which, as I understand it, it 
means that in any given case, if a court of appeals reverses a 
board order, the board is compelled to follow the court in that 
particular case, but it does not or it is privileged not to 
follow that same rule that the court has set down in any other 
similar case.
    This is just one of the ways in which the board's 
jurisprudence ends up being conflicting and confusing and often 
internally contradictory. You know, is there a cure for it or 
is there an end in sight? I am not sure. But I do know--
    Mr. Norcross. I think there is a cure, and it is something 
that we can do.
    But this is the point. Precedent, the rule of law, the very 
basis for our country, and yet three individuals decide that 
they are now the law and will change it in any way they see 
fit.
    This is a primary area of focus that I think we as a 
committee should look at when we start making recommendations 
and writing some of the changes that are really needed.
    We thank you very much for your input in this, and it is 
something that this is just one of many issues that has been 
abused.
    With that, I yield back the balance of my time.
    Chairwoman Wilson. Thank you, Mr. Norcross.
    Congressman Banks is recognized.
    Mr. Banks. Thank you, Madam Chairwoman.
    Mr. Taubman, in 2014 the National Labor Relations Board 
instituted what has become known as the ambush election rule, 
which you mention in your testimony. Can you explain to the 
members of this committee what that rule is and how it 
infringes upon workers' rights?
    Mr. Taubman. Well, the ambush election rules allow that 
once a union files a petition that the election will be held 
very, very quickly--meaning there is no time for debate among 
the work force, there is no time for employees to educate 
themselves. And for employers who have Section 8(c) free speech 
rights, there is no time for them to have input into it.
    You know, I heard some testimony about employers not being 
parties to these things. There is actually three parties to an 
NLRB election. There is the unions, there is employers, and 
there is workers. And all of these people should have free 
speech rights in the workplace. And so the ambush election 
rules curtailed all of that and made it impossible for there to 
be a real debate.
    And at the same time, it didn't apply, the ambush rules did 
not apply to a decertification. So if an employee said we want 
to choose to vote to get rid of the current union, suddenly it 
was all subject to being blocked and delayed, because those--
    Mr. Banks. Can I stop you there and ask you, what is the 
current status of the rule?
    Mr. Taubman. The current status of the rule is that the 
current NLRB is in the process of a rulemaking program looking 
at changing some or all of that rule. But it is just--these 
things take a long time when you deal with rulemaking, because 
there has to be notice and comment, the board, when they issue 
the final rules, has to respond to all of these comments. So 
you are looking at a process that often goes years.
    Mr. Banks. Okay.
    Moving on to a different issue, a 2015 poll from the 
Opinion Research Corporation found that 81 percent of Democrats 
support the right to a secret ballot election. They support a 
requirement that unions stand for periodic recertification and 
support a requirement that unions receive opt-in permission 
from workers before using their dues on politics.
    Is this number surprising to you, based on your experience 
representing employees across the country?
    Mr. Taubman. Again, these are all basic free speech, free 
association principles. I think if you ask Americans what do 
they think about secret ballots and free speech, which, 
frankly, is under attack in many parts of this country, most 
Americans support free speech and the right of people to 
organize together, but the equal right to not join, to not 
organize, to refrain. You can't have the right of association 
without having the right of nonassociation. The Supreme Court 
has held this for years.
    Mr. Banks. So it doesn't sound like you are surprised.
    Let's move on to another issue. As a co-author of Indiana's 
very successful right-to-work law, I have noticed that a lot of 
opposition to right-to-work laws comes from the belief that 
reduced union power will lead to lower wages.
    There are a number of studies that make this claim, but 
these studies often fail to account for the significant 
difference in cost of living across the States.
    In fact, the Missouri Economic Research Information Center 
notes that right-to-work States have a cost of living that is 
6.5 percent below the national average as of 2016.
    When taking this difference fully into account, disposable 
per capita income was $2,400 higher in right-to-work States 
than forced union States, according to 2016 data from the 
Bureau of Economic Research.
    Can you talk about why income may be higher in right-to-
work States when the common wisdom suggests that it would be 
lower?
    Mr. Taubman. So I am not an economist. Talking about the 
statistics is not my forte. I am a lawyer that represents 
individual employees.
    But to me, it is just common sense that when you have a 
work force that has free choice, that is mobile, that their 
talents are rewarded based upon who they are as an individual 
and not treating workers as widgets or machines that get put 
into collective bargaining units that you are going to have 
more freedom and you are going to have more economic growth. 
And that is why right-to-work States lead the country in 
economic growth.
    Mr. Banks. Thank you. My time has expired.
    Chairwoman Wilson. Thank you.
    Congressman Courtney.
    Mr. Courtney. Thank you, Madam Chairwoman, and definitely 
for holding this hearing this morning.
    Mr. Rosenfeld, I would like to expand on some of your 
comments regarding the role that unions play in reducing 
inequality and ensuring that wages rise with worker 
productivity and maybe in a little different sort of realm than 
might have been discussed this morning, which is right now I 
think almost any Member going anywhere in the country is going 
to hear a hue and cry about the skills gap and the need for 
getting work force training and just a way of imparting, 
whether it is manufacturing, healthcare, finance. I mean, the 
list goes on and on.
    In Connecticut, where we do have a work force with 16 
percent union participation, we have actually seen some really 
impressive efforts between management and unions, particularly 
in the area of defense manufacturing, again, as we see baby 
boomers leaving in big numbers from the work force and, 
obviously, trying to get millennials sort of up to speed.
    The apprenticeship program which has been going on down at 
the Electric Boat shipyard, which is now about 12,000 strong in 
terms of the work force and it is going to continue growing 
over the next 2 or 3 years with the Navy shipbuilding plan, 
that, again, has been incredibly successful in terms of really 
accelerating people through the skills acquisition process, if 
you want to call it that. They also continue with active 
learning centers for people who are actually in the yard. So 
that, again, this is just an ongoing process. And, again, it is 
done through a management-labor sort of agreement in terms of 
how it operates.
    We also up in Pomfret, Connecticut, have the Laborers' 
International Union of North America, which actually has their 
New England training academy for the building trades and 
construction.
    So, again, I just wonder if you could talk a little bit, if 
you could, about sort of the ancillary benefits of collective 
bargaining in terms of really addressing issues that are common 
to both management and labor.
    Mr. Rosenfeld. Yes, I think that is a great question. And 
the unions' role in kind of fostering training, work force 
development programs oftentimes gets overshadowed in these 
highly politicized debates. But it is real, it is there, and we 
see successful efforts across the country.
    In Connecticut there has been good research done on 
manufacturing, in Wisconsin, in Michigan as well, where they 
have had kind of successful training programs working hand in 
hand with management about how to upskill the work force.
    And I think that is a nice way of saying that not only do 
unions help close the gap between rising productivity and 
average worker wages, but they also help bump productivity in 
the first place. And that is, I will say, an area that gets 
less attention, but probably needs more.
    Mr. Courtney. Thank you. Again, I think that having that 
sort of bottom-up communication about ways that new 
technologies are being introduced in terms of just workplace 
methods and production, again, has just been very successful in 
terms of--you know, they just commissioned the USS
    South Dakota. Again, built ahead of schedule. The work 
force is now 51 percent millennial. And if you go back just 3 
or 4 years ago, it was about a quarter.
    So this thing is happening very quickly in terms of just 
the change in the work force. And there is just no question 
that the union-management arrangements to really kind of mentor 
these young folks coming in through the metal trades council 
and the United Auto Workers has just really been a tremendous 
success.
    Mr. Rosenfeld. Yes, I wouldn't disagree at all. And we see 
that kind of overseas in places that still retain strong 
manufacturing bases, Germany, Denmark, and the like. That 
unions, one of their key roles is helping in this kind of 
upskilling and bringing in kind of new workers to replace those 
who are now facing retirement age.
    Mr. Courtney. Thank you. I would be remiss if I didn't 
mention that Mr. Scott's district is also seeing that same kind 
of change that is happening in the work force. And this really 
is the question of the day for our economy, is just whether we 
are going to have the folks skilled up to take on these 
opportunities.
    With that, I yield back.
    Chairwoman Wilson. Thank you.
    I now recognize the esteemed chair of the Education and 
Labor Committee, Chairman Scott.
    Mr. Scott. Thank you. Thank you, Madam Chair.
    Mr. Rosenfeld, we have heard a suggestion that unions hold 
people back. Can you show the difference between compensation 
of union members and nonunion members? Does it make a 
difference?
    Mr. Rosenfeld. Sure. The union wage premium, well 
documented and now decades worth of studies, averages about 15 
to 20 percent. So that means you take a worker who belongs to a 
labor union and an otherwise similar nonworker, similar in all 
sorts of characteristics that affect people's pay, the union 
member earns on average 15 to 20 percent more than the 
nonmember.
    Mr. Scott. Likelihood of a pension or employer-provided 
healthcare?
    Mr. Rosenfeld. Absolutely. So once you start factoring in 
benefits, the divergence grows. The likelihood of having 
employer-provided healthcare is much higher among the union 
members. And certainly having a pension, much higher among 
union members. And certainly having a defined benefit pension, 
much higher among the union members.
    Mr. Scott. Thank you.
    Ms. Virk, can you tell us why a private right of action is 
important?
    Ms. Virk. A private right of action to enforce the National 
Labor Relations Act's protections?
    Mr. Scott. Right.
    Ms. Virk. Right now, I believe that the only private right 
of action that exists for enforcing any of the protections 
under the act is an action to enforce the duty of fair 
representation, which is an action that an individual member 
can bring against a union.
    There are, to my knowledge, no other provisions of the act, 
including the right to be free from illegal coercion, the right 
not to be fired for engaging in union activity, the right to 
bargain collectively. All of those rights are only enforceable 
and exclusively enforceable through the board's own processes.
    Certainly, we have seen that in other situations having a 
private right of action does develop a body of law and provides 
certain remedial measures that might not be available under an 
agency statue. I am, obviously, not here as a policymaker, but 
it is something that certainly this body could consider as an 
effective way to provide a remedy.
    Mr. Scott. Could you say a word about whether or not it is 
important to have injunctive relief and potential reinstatement 
during litigation?
    Ms. Virk. Really, nothing could be more critical than 
having quick relief for when an individual, such as Ms. Harper, 
is fired for union activity. This often happens, it happens in 
not just isolated instances, but in a substantial percentage of 
campaigns to organize. Individuals who take the lead and who 
come out to their employers, as it were, as union supporters 
end up being suspended, fired, and targeted.
    And it is not just that worker who is hurt. It is all the 
other workers who wish to have a union who see that happen and 
are reminded once again of the complete and utter coercive 
authority of their employer, what their employer can do to 
them. And having an injunctive relief that was not just 
available but mandatory in those cases would be a critical 
step.
    Mr. Scott. Can you say a word about the deterrent effect of 
civil penalties and whether the civil penalties are sufficient 
today?
    Ms. Virk. Well, as I understand it, there really are no 
civil penalties under the National Labor Relations Act. As I 
said, many of the wrongs that are found by the board are cured 
or supposedly cured only by a notice posting, literally a piece 
of paper up in the shop saying go forth and don't do it again. 
This is really not a meaningful remedy.
    Almost every other statue that I can think of in this 
subject area and many others has civil penalties attached to it 
for the basic reason that, again, we provide consequences for 
violating those rights that we believe to be important.
    Mr. Scott. There is a concept of joint employer where you 
are at a temp agency and working at an agency, there is a 
question of which one you can negotiate with. Why is it 
important to be able to negotiate with whoever is actually 
controlling the conditions, the terms and conditions of 
employment?
    Ms. Virk. Well, because those are the entities, just to 
State the obvious, that have the ability to affect an 
employee's terms and conditions of employment. If an employee 
is going to have a meaningful right to bargain collectively, 
they have to have the right entities across the table from them 
when they do that.
    Mr. Scott. And why is it important to have a first 
contract? What happens on the first contract? Does that need to 
be changed?
    Ms. Virk. Right now when people organize, they choose a 
union, they jump through all of the hoops that are required of 
them. There is no incentive for an employer to reach a contract 
with the employees. In many cases what happens is employers 
stall that process, and in the end of the day, even though 
workers have voted overwhelmingly to unionize, they never get a 
contract.
    I would suggest that one of the remedial measures that this 
body could take into account would be to have some process by 
which, if a contract is not reached after a certain period of 
bargaining has expired, that there be a neutral process by 
which an initial contract could be reached between the parties 
or facilitated through mediation or arbitration.
    Mr. Scott. Thank you.
    Thank you, Madam Chair.
    Chairwoman Wilson. Thank you.
    Before recognizing the ranking member for his closing 
statement, I ask unanimous consent to enter the following 
materials into the record: a letter from the International 
Union of Painters and Allied Trades.
    Without objection.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Wilson. I now recognize the distinguished 
ranking member, Mr. Walberg, for his closing statement.
    Mr. Walberg. I thank you, Madam Chairwoman, and appreciate 
the hearing. It is always worthwhile to discuss things that we 
may assume have been talked to death. Sometimes we forget that, 
and we don't get the reality. So thank you for this.
    You have almost persuaded me to start an organizing 
petition for the minority. If we could get a union in place for 
the minority I think we could have--don't worry, I am not going 
to. You are still treating me fine.
    I used to maybe drive my kids nuts, especially in their 
teenage years, when they would come and talk to my wife--well, 
first they would talked to me, then they would go to my wife 
because they could get a better answer there--about the dating 
process and what was going on and the romantic issues that were 
taking place in their life. And I would respond to them and 
say, well, that is the dance of the courtship.
    And so it got to a point in time in their life where any 
time they approached me and I thought it was going to be the 
dance of the courtship. And they knew exactly what I was 
saying. It is not an easy dance. It takes two people. It takes 
some other factors. At times, it just doesn't seem to work out 
in every case exactly the way you want it at that point in 
time.
    But somehow each and every one of them got through it, as 
their mother and father did as well, that dance of courtship.
    And so there is maybe a dance of the workplace. I want to 
kind of apply that. There is a dance of the workplace. Nothing 
is perfect in a workplace. And sadly, as Ms. Harper so clearly 
illustrated for us today, there are still a few monster mashes 
going on as well in those workplaces that need to be taken care 
of, and that we have put in place rules and laws, agencies that 
are supposed to be taking care of that.
    In some cases, they are. In some cases, we miss those 
things. And certainly we want to take those seriously and 
especially when it relates to the life of an individual in the 
workplace.
    And Congress is responsible for defining and chaperoning 
this dance, as it were. It is our responsibility, the workplace 
miracle that has made America normally the greatest and most 
productive place to live and work in the entire world. I don't 
think there is a debate on that.
    With our mistakes, we have remedied many of those. We have 
moved forward. And the unions and the management, employees and 
the owners, have been all part of that over the course of time.
    And I don't want to give up on it, Madam Chairwoman, and so 
again, I appreciate this hearing. I believe that any effort 
that takes the employer-employee scale out of balance puts 
everything out of sync. That scale has to remain in balance to 
make it work, and that is our responsibility, along with the 
workplace as well.
    Sadly, the results, if this imbalance takes place, can 
include abuse. It can include scandal. It can include fraud, 
lack of transparency, fear, and economic failure, both in 
individuals' household life as well as in the business' life as 
well if we are not careful.
    We have come a long way to turn back now. While there are 
dark corners in most every room, there is irrefutable evidence 
that workers enjoy free choice better than not.
    We just have to look at Michigan for that. We can do all of 
the studies we want and put all of the data that we can find to 
put in that some cases, sadly, makes a point that we want to 
make.
    But when you look at the laboratory of life experience or 
the dance of the workplace at times in a State like Michigan 
that I am privileged to represent, free choice of free 
individuals, making informed decisions, and then having the 
regulations and rules in place that meet the need of the place 
and time we find ourselves works best. Michigan hasn't seen a 
decline in union membership and an actual increase in middle 
class pay through coercion.
    Those are the facts in Michigan today, and I want to see 
them continue. So that means that we work together in a light 
touch approach as necessary. If there is a heavy touch that is 
absolutely required, that is one thing.
    But to keep that scale so there is always that creative 
tension, and in most of the businesses I go into, there is that 
creative tension, where the employer knows that I am at this 
State right now because I have taken care of my employees. And 
all I need to do is let some of those lights go out and the air 
conditioning fan go out and a number of things take place and 
lockouts get left open and unrepaired and I have got a problem 
on my hands.
    I think that is productive, and I want to be part of that. 
And I thank the panel for being here today to cause us to think 
through those issues. And I yield back.
    Chairwoman Wilson. Thank you, Mr. Walberg, and we continue 
on our path together.
    I will now recognize myself for the purpose of making my 
closing statement.
    Thank you again to all of our witnesses for your 
testimonies today.
    Today we heard how weak labor laws have failed to safeguard 
the human right to join a union. Routine violations of the 
right to organize suppress wages and deny workers the 
opportunity to negotiate for their fair share of the wealth 
they create.
    We heard from Dr. Rosenfeld how the decline of union 
membership hurts all workers and how unions can close the wage 
gaps for women and people of color. We heard from Ms. Harper 
how difficult it is to organize a union in the face of employer 
resistance. Ms. Harper is one of many courageous Americans who 
stood up for their right to organize a union and was unfairly 
targeted.
    As our witnesses have made clear, Congress must act now to 
stop violations of workers' rights and reverse decades of wage 
stagnation and income inequality.
    I thank my colleagues for an informative hearing. I thank 
the witnesses for coming. And I yield back my time.
    If there is no further business, without objection, the 
committee stands adjourned. Thank you for coming.
    [Additional submission by Mrs. Foxx follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submissions by Chairwoman Wilson follow:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Questions submitted for the record and their responses 
follow:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
